OIG Investigative Reports Miami, FL 12/09/2010 - For-Profit Trade School Admissions Counselor Indicted for Creating Fradulent High School Diplomas
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorneys Office
Southern District of Florida
Public Affairs Office:
Alicia Valle
Special Counsel to the U.S. Attorney
(305) 961-9153
Public Affairs Fax
(305) 530-7055
December 09, 2010
FOR IMMEDIATE RELEASE
For-Profit Trade School Admissions Counselor Indicted for Creating Fradulent High School Diplomas
Wifredo A. Ferrer, United States Attorney for the Southern District of Florida, Yessyka Santana, Special Agent in Charge, U.S. Department of Education, Office of Inspector General, Investigation Services, Southeastern Region, and John V. Gillies, Special Agent in Charge, Federal Bureau of Investigation, Miami Field Office, announced that Ricardo Pradel, 31, of Miami, was charged in a one count indictment with federal financial aid fraud, in violation of Title 20, United States Code, Section 1097.
If convicted of this charge, the defendant faces a maximum statutory term of up to five (5) years’ imprisonment.
As alleged in the indictment and other court documents, between September 2007 and April 2010, Ricardo Pradel, worked as an admissions counselor for the American Institute, a for-profit trade school in Lauderdale Lakes, Florida. During this time, Pradel is alleged to have created false high school diplomas that were placed into prospective student files. These files were used to gain admission and to support false applications for federal financial aid. As a direct result of these fraudulent documents, ineligible students at the American Institute received approximately $156,000 in federal financial aid to which they were not entitled.
Mr. Ferrer commended the investigative efforts of the U.S. Department of Education, Office of Inspector General and the FBI for their work on this case. This case is being prosecuted by Assistant U.S. Attorney Marc Anton.
An indictment is only an accusation, and a defendant is presumed innocent until and unless proven guilty beyond a reasonable doubt.
A copy of this press release may be found on the website of the United States
Attorney's Office for the Southern District of Florida at http://www.usdoj.gov/usao/fls.
Related court documents and information may be found on the website of the District
Court for the Southern District of Florida at http://www.flsd.uscourts.gov
or on http://pacer.flsd.uscourts.gov.
Technical comments about this website can be e-mailed to the Webmaster. PLEASE NOTE: The United States Attorney's Office does not respond to non-technical inquiries made to this website. If you wish to make a request for information, you may contact our office at 305-961-9001, or you may send a written inquiry to the United States Attorney's Office, Southern District of Florida, 99 NE 4th Street, Miami, Fl. 33132.
Top
Printable view
Last Modified: 04/18/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov